HHS/OIG-Audit--"Analysis of Readmissions Under the Medicare Prospective Payment System for Calendar Years 1996 and 1997, (A-14-99-00401)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Analysis of Readmissions Under the Medicare Prospective Payment System
for Calendar Years 1996 and 1997," (A-14-99-00401)
February 11, 2000
Complete Text of Report is available in PDF format
(1.62 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our analysis, made at the request
of the Health Care Financing Administration (HCFA), of Medicare claims in which
a beneficiary was discharged and subsequently readmitted on the same day to
the same hospital during Calendar Years 1996 and 1997. The review disclosed
over 34,500 readmissions nationwide in these 2 years with payments totaling
about $226.6 million for the second hospital stays. Based on certain trends
and patterns among providers, beneficiaries, and diagnostic related groups (DRG),
we found same day readmissions are a cause of concern regarding quality of care
issues in addition to billing and overpayment problems. We recommended that
HCFA: (1) make the data in our report available to peer review organizations
for use in determining the scope of their peer review activities; (2) perform
reviews at hospitals having a larger than average number of same day readmissions;
(3) perform beneficiary-specific reviews on the claims of beneficiaries who
had multiple continuous same day readmissions; and (4) review a sample of same
day readmission claims in which the same day readmission was coded with the
same DRG as the first hospital stay. The HCFA generally concurred with our recommendations.